No. 20-843
NEW YORK STATE RIFLE & PISTOL ASSOCIATION, ET AL.,
Petitioners,
v.
KEVIN P. BRUEN, in His Official Capacity as Superintendent of New York State
Police, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that Brief of the
Cato Institute as Amicus Curiae in Support of Petitioners contains 7,547
words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d).

/s/ Ilya Shapiro
Counsel of Record

